Peace Corps
Office of Inspector General




   Peace Corps office in Belmopan, Belize




                             Source: CIA World Factbook




     Final Audit Report:
     Peace Corps/Belize
             IG-11-04-A

                                                          March 2011
                               EXECUTIVE SUMMARY
Peace Corps/Belize’s financial and administrative operations were functioning effectively and in
overall compliance with agency policy and federal regulations. We did identify certain
operations requiring management action to ensure continued efficient and effective use of Peace
Corps’ resources. In addition, internal controls over certain operations needed strengthening.
The following provides a summary of our audit findings and conclusions.

Personal Services Contracts
Personal services contracts with performance period of less than one year, issued by the post,
included amounts for statutory holiday pay. Holiday pay was to be calculated at one-and-one-
half times the standard hourly pay rate. However, the holiday pay rate specified on the contracts
was significantly higher. The post took immediate corrective action by issuing contract
modifications with the correct holiday hourly pay rate.

Security Certifications
The contract files for 12 personal service contractors (PSCs) did not contain the staff members’
security certifications (clearances). During the audit, the post administrative officer requested
and received from the regional security officer 9 of the 12 missing certifications.

Purchase Card
The post did not retain in the government purchase card transaction files copies of purchase
requests and/or documentation for the receipt of the goods and services purchased.

Real Property
The post was given three houses by the Belize government. However, the post had not
determined whether it had valid title to the properties. Further, the post had not fully considered
the impact of accepting and maintaining the houses; whether keeping the houses was
economically advantageous to the Peace Corps; or if there were additional ramifications of
ownership.

Our report contains ten recommendations, which, if implemented, should strengthen internal
controls and improve the efficiency and effectiveness of PC/Belize.




Final Audit Report: Peace Corps/Belize                                                              i
                                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY .................................................................................................................... i

BACKGROUND ..................................................................................................................................1

AUDIT RESULTS ...............................................................................................................................1
     A. PERSONAL SERVICES CONTRACTS ..................................................................................................................... 1

     B. SECURITY BACKGROUND CERTIFICATIONS ........................................................................................................ 2

     C. PURCHASE CARDS .............................................................................................................................................. 3

     D. REAL PROPERTY ................................................................................................................................................ 3


QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE.......................................................6

LIST OF RECOMMENDATIONS .........................................................................................................7

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY...............................................................8

APPENDIX B: LIST OF ACRONYMS ..................................................................................................9

APPENDIX C: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT ...............................10

APPENDIX D: OIG COMMENTS ................................................................................................14

APPENDIX E: AUDIT COMPLETION AND OIG CONTACT .............................................................15
                                         BACKGROUND
The Office of Inspector General (OIG) conducted an audit of PC/Belize April 13 – April 29,
2010. We previously performed an audit of the post in February 2005 (IG-05-13-A, issued in
June 2005).
The Peace Corps commenced its program in Belize in 1962. Since then, over 2,000 Volunteers
have served there. At the time of our visit, approximately 160 Volunteers were working in
collaboration with government ministries, schools, and local organizations to carry out projects
in education, youth development, rural community development, and environmental
conservation.
Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations were functioning effectively and complied with Peace Corps policies
and federal regulations during the period under audit. Appendix A provides a full description of
our audit objective, scope, and methodology.


                                     AUDIT RESULTS
Overall, PC/Belize’s financial and administrative functions were operating effectively and in
compliance with agency policy and federal regulations. We found the post’s management to be
competent and proactive. The programming and training officer was functioning as acting
country director during first weeks of our visit. The newly appointed country director arrived at
post in the last week of the visit.

We identified certain areas requiring management action to ensure continued efficient and
effective use of agency resources, strengthen internal controls, and comply with agency policy
and federal regulations. The details of our findings and recommendations are presented on the
following pages.


A. PERSONAL SERVICES CONTRACTS

The Personal Services contracts included an incorrect pay rate provision for holiday pay.

PC/Belize issued/awarded nine short-term personal services contracts to assist the post with pre-
service training. The contracts included a provision for holiday pay. The post used a BZ$ 270
(135 USD) holiday hourly pay rate.

Peace Corps Manual section (MS) 743.9.3 requires that, in using the personal services contract
template, “the blanks should be filled in appropriately….” MS 743.10.2 requires personal
services contractor compensation to be “fair and reasonable.”

To meet the fair and reasonable standard, the post should have used a holiday hourly pay rate of
BZ$ 33.75 (16.88 USD) per hour which is equal to one and half times the contractor’s regular


Final Audit Report: Peace Corps/Belize                                                             1
hourly pay rate. The discrepancy was over looked during the administrative officer (AO)1 and
acting country director’s (CD) review of the contracts.

Uncorrected, the Peace Corps could have been obligated to pay the holiday rate specified in the
contracts. The total cost impact would have been BZ$ 1,890 (945 USD) per employee and
BZ$17,010 (8,505 USD) in total.

The administrative officer and acting country director took immediate action to correct the error
in the contracts by issuing modifications with the corrected holiday hourly pay rate.

         We recommend:

                  A.1 That the administrative officer and the country director ensure future short-
                  term personal services contracts contain the correct holiday rate.


B. SECURITY BACKGROUND CERTIFICATIONS

PSC files did not contain security background certifications.

Our audit of personal services contract files identified 12 PSCs without a current security
background certification on file.

MS 743.8.2 states:

         For all host country resident PSCs contracted for 260 work days or more, the Country Director must ask the
         Regional Security Officer (RSO) or his or her designee to conduct a background investigation (as per 12
         FAM 422.4, 19, 20) of the proposed PSC prior to executing the contract …. The CD must request re-
         certification of a continuously employed PSC every five years in accordance with 12 FAM 420.
         Documentation of the security certification will be filed in the individual PSC’s contract file at post.

Failure to obtain security background certifications prior to awarding personal services contracts
increases the safety and security risk at the post because the post may inadvertently award a
personal services contract to a high-risk employee.

After we discussed this issue to the post, the AO contacted the regional security officer (RSO).
The RSO had eight of the missing certifications on file and immediately provided them to the
post. The AO requested the RSO to complete background investigations for the remaining four
PSCs. Prior to issuing our preliminary audit report, the post administrative officer received the
completed the four background investigations from the RSO.




1
  Subsequent to issuance of the preliminary report, Peace Corps updated the administrative officer’s working title to
the director of management and operations.


Final Audit Report: Peace Corps/Belize                                                                              2
       We recommend:

               B.1 That the post, on an ongoing basis, ensure security background certifications
               are obtained from the regional security officer in a timely manner in accordance
               with agency policy.

C. PURCHASE CARDS

The purchase card files were missing required documentation supporting post purchases.

The post did not retain in the government purchase card transaction files copies of purchase
requests and/or documentation for the receipt of the goods and services purchased.

MS 731.5.6 (d) requires the Peace Corps purchase card program cardholder maintain accurate
and complete records of all purchase card transactions. MS 731.5.6 (i) requires the purchase
card holder to retain purchase card files for a minimum period of three years.

       We recommend:

               C.1 That the post retain copies of purchase requests and documentation for the
               receipt of goods and services purchased with the government purchase card, for a
               minimum period of three years as required by agency policy.

D. REAL PROPERTY

The post has not determined if retaining donated real property is economically advantageous
to the Peace Corps.

The post was located in the coastal town Belize City until 2007, when it relocated inland to
Belmopan. The government of Belize provided the post three houses in Belmopan primarily for
use as inland shelters in the event of a coastal hurricane. Post management believed the Belize
government owned the houses and provided the post free use of the houses. The post has used
the houses for Volunteer housing; temporary staff lodging during pre-service trainings; storage; a
medical sick bay; and to house Volunteers during a tropical storm. The AO told us the post
expended approximately $1,600 (USD) in fiscal year 2008 and $1,140 (USD) in fiscal year 2009
for operation and maintenance of the three properties.

In summer 2009, the AO discovered a folder containing “Land Certificates” for the three houses
in the name of Peace Corps/Belize, dated December 9, 2005. The folder also contained a
transmittal letter from the Prime Minister “to transfer title for the three houses long occupied by
your volunteers to the Peace Corps.” In October 2009, the acting director for the Inter-America
and Pacific Operations requested advice concerning the three houses from the Office of General
Counsel (OGC). OGC advised the AO and the CD to “check with a local lawyer to make sure
Peace Corps really does have full title.”




Final Audit Report: Peace Corps/Belize                                                             3
The post had been reporting the use of the houses as host country contributions based on the
Volunteer housing allowance amount for Belmopan. On April 20, 2010, the Office of the Chief
Financial Officer issued a policy statement stating that cash and in-kind host country
contributions will be reported as fiduciary assets in accordance with Statement of Federal
Financial Accounting Standards (SFFAS) number 31. However, because the land certificates do
not specify ownership or other interests of the Belize government, the properties may not be
fiduciary assets but rather donations and, accordingly, should be reported as real property assets.
SFFAS number 6 states that, “The cost of general PP&E [property, plant and equipment]
acquired through donation, devise, or judicial process excluding forfeiture…shall be estimated
fair value at the time acquired by the government.”

The Peace Corps Act, section 10(a) (4), authorizes the Director of the Peace Corps to accept gifts
of services, money, or property for employment or transfer in furtherance of the purposes of the
Act. MS 722 cites this authority in providing guidance for host country contributions, but does
not discuss the criteria for accepting contributions.

Although MS 721.2.0 states that the policy does not apply to host country contributions to Peace
Corps programs, the policy provides useful guidance in dealing with contributions of real
property and gift acceptance. This includes defining real property as a gift-in-kind; criteria for
gift acceptance; and procedures for acceptance or rejection of gifts.

For example, MS 721.6.1 contains the criteria for gift acceptance, including a determination that
the gift is economically advantageous to the Peace Corps, taking into consideration foreseeable
expenditures such as storage, transportation, and maintenance; and that acceptance of the gift
will not involve expenditure or use of appropriated funds in excess of amounts authorized
through the administrative budget advice system, will neither raise a question of impropriety nor
conflict of interest; and will not put any financial liability directly or indirectly upon the Peace
Corps. Such determinations are useful to protect government interests and ensure efficient use of
government funds. In addition, Executive Order 13327, section 4(b), requires “…evaluating the
costs and benefits involved with acquiring, repairing, maintaining, operating, managing, and
disposing of Federal real properties at particular agencies.”

       We recommend:

           D.1.1 That the post have a local lawyer verify that the Land Certificates, in the name
           of Peace Corps/Belize, for the three properties from the Belize government are legal
           and proper under local law.

           D.1.2 That, if the post has valid title to the properties, then the post needs to obtain
           an assessment to determine their value and identify any costs required to bring the
           properties up to acceptable condition and maintain them on an ongoing basis.

           D.1.3 That the post and the region, in consultation with the Office of General
           Counsel, determine the action to be taken with respect to the properties, giving
           consideration to the criteria in Peace Corps Manual section 721.6.1.




Final Audit Report: Peace Corps/Belize                                                                4
           D.1.4 That, if the agency decides to retain the properties, the Office of the Chief
           Financial Officer determine the proper handling of the properties in the financial
           records, giving consideration to federal financial accounting standards and other
           applicable guidance.

           D.1.5 That, if it is decided to retain the properties, the post reflect them as host
           country contributions.

           D.1.6 That the Office of Administrative Services, Facilities Management Division, in
           consultation with the Office of General Counsel, report these properties as required in
           accordance with Executive Order 13327.

           D.1.7 That the Office of General Counsel review Peace Corps Manual section 722 to
           determine if additional guidance is needed to provide criteria for acceptance of host
           country contributions and define the responsible parties for acceptance.




Final Audit Report: Peace Corps/Belize                                                            5
                         QUESTIONED COSTS AND
                      FUNDS TO BE PUT TO BETTER USE
We did not identify any questioned costs during the course of the audit. We did identify funds to
be put to better use as detailed in the following tables.



                                         Questioned Costs


Recommendation
                                             Description                         Amount
    number
                    None



                               Funds to be Put to Better Use

Recommendation
                                       Description                               Amount
    number
      A.1      Incorrect holiday pay rate on short-term PSC contracts            $8,505




Final Audit Report: Peace Corps/Belize                                                         6
                          LIST OF RECOMMENDATIONS

We recommend:
       A.1    That the administrative officer and the country director ensure future short-term
              personal services contracts contain the correct holiday rate.

       B.1    That the post, on an ongoing basis, ensure security background certifications are
              obtained from the regional security officer in a timely manner in accordance with
              agency policy.

       C.1    That the post retain copies of purchase requests and documentation for the receipt of
              goods and services purchased with the government purchase card, for a minimum
              period of three years as required by agency policy.

       D.1.1 That the post have a local lawyer verify that the Land Certificates, in the name of
             Peace Corps/Belize, for the three properties from the Belize government, are legal and
             proper under local law.

       D.1.2 That, if the post has valid title to the properties, then the post needs to obtain an
             assessment to determine their value and identify any costs required to bring the
             properties up to acceptable condition and maintain them on an ongoing basis.

       D.1.3 That the post and the region, in consultation with the Office of General Counsel,
             determine the action to be taken with respect to the properties, giving consideration to
             the criteria in Peace Corps Manual section 721.6.1.

       D.1.4 That if the agency decides to retain the properties, the Office of the Chief Financial
             Officer determine the proper handling of the properties in the financial records, giving
             consideration to federal financial accounting standards and other applicable guidance.

       D.1.5 That if the post retains the properties, the post needs to reflect usage value as host
             country contributions.

       D.1.6 That the Office of Administrative Services, Facilities Management Division, in
             consultation with the Office of General Counsel, report these properties as required in
             accordance with Executive Order 13327.

       D.1.7 That the Office of General Counsel review Peace Corps Manual section 722 to
             determine if additional guidance is needed to provide criteria for acceptance of host
             country contributions and define the responsible parties for acceptance.




Final Audit Report: Peace Corps/Belize                                                                7
APPENDIX A

                OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and comply with Peace Corps policies and federal
regulations. Our audit conclusions are based on information from three sources: 1) document
and data analysis, (2) interviews, and (3) direct observation.

Our audit was conducted in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

The audit of PC/Belize covered fiscal years 2008, 2009, and 2010 through April 30, 2010. While
at the post, we interviewed key staff including the acting country director (the programming and
training officer), the administrative officer, the safety and security coordinator, staff responsible
for administrative support, and the medical officer. We also interviewed Volunteers to obtain
their views on the effectiveness of the post’s administrative and financial systems in supporting
them. At the end of the audit, we briefed the newly appointed country director and post
management personnel. At headquarters, we conducted a general briefing for the regional staff.

We relied on computer-processed data from the post’s accounting system. While we did not test
the system’s controls, we believe the information generated by the system and used by us was
sufficiently reliable for our audit objective.

Our audit criteria were derived from the following sources: the Peace Corps Manual, the
Overseas Financial Management Handbook, federal regulations, and current Peace Corps
initiatives and policies.




Final Audit Report: Peace Corps/Belize                                                             8
APPENDIX B

                                  LIST OF ACRONYMS
 AO                       Administrative Officer
 CD                       Country Director
 OGC                      Office of General Counsel
 OIG                      Office of Inspector General
 MS                       Peace Corps Manual Section
 PSC                      Personal Services Contractor
 RSO                      Regional Security Officer
 SFFAS                    Statement of Federal Financial Accounting Standards




Final Audit Report: Peace Corps/Belize                                          9
APPENDIX C

  MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT




MEMORANDUM

To:           Kathy Buller, Inspector General

Through:      Daljit Bains, Chief Compliance Officer

From:         Carlos J. Torres, IAP Regional Director

Date:         January 25, 2011

CC:           Carrie Hessler-Radelet, Deputy Director
              Stacy Rhodes, Chief of Staff
              Joaquin Ferrao, Deputy Inspector General
              Bradley Grubb, Assistant Inspector General Audits
              Joseph Wagner, Senior Auditor
              Esther Benjamin, Associate Director, Global Operations
              Earl Yates, Associate Director, Management
              Bill Rubin, General Counsel
              Carlos Torres, Regional Director, IAP
              Roger Conrad, Chief of Operations, IAP
              Matt Cain, Administrative Office & Acting Country Director
              Joe Hepp, Chief Financial Officer
              Dawn Hodge, Country Desk Officer

Subject:      Response to the Preliminary Report of Peace Corps/Belize, November 2010


Enclosed please find the Region’s response to the recommendations made by the Inspector General for
Peace Corps/Belize, as outlined in the Preliminary Report of the IG Audit sent to the Agency on November
30, 2010.

The Inter America Pacific (IAP) Region concurs with all 10 recommendations provided by the OIG in its
Preliminary Audit Report: Peace Corps/Belize (November 2010).

The Region will continue to work with Post and the departments identified in the Preliminary Report to
ensure closure of these recommendations by the dates included within.




Final Audit Report: Peace Corps/Belize                                                                   10
Response to the April 2010 Preliminary Report of the Office of Inspector General Financial Audit of
Peace Corps/Belize

A.1 That the administrative officer and the country director ensure that future short-term personal
services contracts contain the correct holiday rate.

        Concur: Post will ensure all future short-term PSC contracts have correct holiday rates through
                completion of PSC contract checklist prior to signing contract.

        Documents Included: PSC contract checklist, example of short term contract for FY11 Q2 PST.

        Status and Timeline for Completion: Completed and on-going.


B.1 That the post, on an ongoing basis, ensure security background certifications are obtained from
the regional security officer in a timely manner in accordance with agency policy.

        Concur: Post conducted a thorough review and worked with the RSO’s office to update its contract
        files to include copies of background clearances. All current contracted staff hold valid background
        clearances. Every time Post offers a new contract, or prior to renewal of an option year, we will
        complete the PSC contract checklist to ensure a valid security clearance covers the proposed period
        of performance. Post will also track background clearances with the clearance tracking spreadsheet.

        Documents Included: PSC contract checklist, Clearance tracking spreadsheet

        Status and Timeline for Completion: Completed and on-going


C.1 That the post retain copies of purchase requests and documentation for the receipt of goods and
services purchased with the government purchase card, for a minimum period of three years as
required by agency policy.

        Concur: Post will revise its purchase request process for goods and services purchased with the
        government purchase card. All staff has been trained to use the new micro-purchase request form.
        The purchase request and documentation for the goods and services purchased by the government
        will be retained for a minimum period of three years.

        Documents Included: Micro-purchase template, copies of recent purchase card use
        documentation.

        Status and Timeline for Completion: Completed on-going.




Final Audit Report: Peace Corps/Belize                                                                    11
D.1.1 That the post have a local lawyer verify that the Land Certificates in the name of Peace
Corps/Belize for the three properties from the Belize government are legal and proper under local
law.

         Concur: Post received certification reports from the Belize Registry of Land departments verifying
         Peace Corps Belize is the legal title holder for the properties in question. Please note a lawyer was
         not required to obtain a certified true copy of the report.

         Documents Included: Belize Registry of Land certifications for each residence.

         Status and Timeline for Completion: Completed


D.1.2 That, if the post has valid title to the properties, the post obtain an assessment to determine
their value and identify any costs required to bring the properties up to acceptable condition and
maintain them on an ongoing basis.

         Concur: Each residence was appraised for value by an independent party. The General Services
         Coordinator, Safety and Security Coordinator and the Administrative Officer evaluated each
         residence for immediate repairs/maintenance required, and submitted an estimate for annual costs
         to Post to maintain the residences in satisfactory condition.

         Documents Included: Appraisal reports for each residence, Report on immediate costs to
         improve residences to acceptable and habitable conditions, Report on projected annual costs to
         maintain residences.

         Status and Timeline for Completion: Completed


D.1.3 That the post and the region, in consultation with the Office of General Counsel, determine the
action to be taken with respect to the properties, giving consideration to the criteria in Peace Corps
Manual section 721.6.1.

         Concur: The Government of Belize donated the Belmopan residences to Peace Corps Belize to
         serve as hurricane shelter when Post’s office was located in Belize City. Now that the office is
         located in Belmopan, and more secure locations for shelter identified, we no longer require the
         residences to serve as shelter during a hurricane. Post proposes the following action: 1) retain 30
         Mayflower for short term PCV lodging needs related to medical or safety/security related issues
         when visiting the Belmopan office; 2) retain 26/28 Cardinal through November 2011 to
         accommodate PCV currently residing there, then return to Government of Belize; 3) immediately
         return 22 Cayo residence to the Government of Belize.

         The region will confer with General Counsel and determine the action that needs to be taken.

         Status and Timeline for Completion: February 28, 2011




Final Audit Report: Peace Corps/Belize                                                                         12
D.1.4 That, if the agency decides to retain the properties, the Office of the Chief Financial Officer
determine the proper handling of the properties in the financial records, giving consideration to
federal financial accounting standards and other applicable guidance.

         Concur: PC Belize interested in retaining only one of the properties. IAP will follow up with CFO
         to determine proper documentation requirements.

         Status and Timeline for Completion: Open: February 28, 2011


D.1.5 That if it is decided to retain the properties, the post reflect them as host country
contributions.

         Concur: Post has and continues to include the donated residences in its quarterly HCC report to
         CFO. Beginning in FY10, Post has also included the residences in the Operating Plan under
         property rental. Post calculates the HCC amount based on the current monthly PCV housing
         allowance amount for volunteers serving in Belmopan (where the residences are located).
         Documents Included: Latest HCC quarterly report, HCC Summary report of FY11 Op Plan

         Status and Timeline for Completion: Completed and on-going.



D.1.6 That the Office of Administrative Services, Facilities Management Division, in consultation
with the Office of General Counsel, report these properties as required in accordance with Executive
Order 13327.

         Status and Timeline for Completion: Region will follow-up with the appropriate departments as
         listed above to ensure properties are reported as per Executive Order 13327.

         Status and Timeline for Completion: February 28, 2011


D.1.7 That the Office of General Counsel review Peace Corps Manual section 722 to determine if
additional guidance is needed to provide criteria for acceptance of host country contributions and
define the responsible parties for acceptance.

         Status and Timeline for Completion: Region will follow-up with GC to determine if additional
         criteria for acceptance of host country contributions as well as define the responsible parties for
         acceptance.

         Status and Timeline for Completion: February 28, 2011




Final Audit Report: Peace Corps/Belize                                                                     13
APPENDIX D
                                    OIG COMMENTS
Management concurred with all 10 recommendations. We closed six recommendations: A.1,
B.1, C.1, D.1.1, D.1.2, and D.1.5. Four recommendations remain open: D.1.3, D.1.4, D.1.6, and
D.1.7. These recommendations remain open pending confirmation from the chief compliance
officer the following actions have been completed:

       Recommendation D.1.3: The Government of Belize agrees to retake possession of the
       residences at 26/28 Cardinal and 22 Cayo.

       Recommendation D.1.4: The Office of the Chief Financial Officer determines and makes
       the appropriate recognition of the three properties to Peace Corps’ financial books and
       records.

       Recommendation D.1.6: The Office of Administrative Services, Facilities Management
       Division reports these properties, as required, in accordance with Executive Order 13327.

        Recommendation D.1.7: The Office of General Counsel determines if additional
       guidance is needed to provide criteria for acceptance of host country contributions and
       define the responsible parties for acceptance.




Final Audit Report: Peace Corps/Belize                                                           14
APPENDIX E
                 AUDIT COMPLETION AND OIG CONTACT

 AUDIT COMPLETION                 Joseph Wagner, Forensic Auditor, performed the Peace
                                  Corps/Belize audit.




                                  Bradley Grubb, CPA
                                  Assistant Inspector General for Audit


 OIG CONTACT                      If you wish to comment on the quality or usefulness of
                                  this report to help us strengthen our product, please
                                  e-mail Bradley Grubb, Assistant Inspector General for
                                  Audit, at bgrubb@peacecorps.gov, or call him at (202)
                                  692-2914.




Final Audit Report: Peace Corps/Belize                                                     15
         REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT
  Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
  general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, abuse, and wrongdoing related to Peace
 Corps operations domestically or abroad. Using the OIG contact
    resources below, you can report information or allegations
          confidentially or choose to remain anonymous.




                               Call:
                   Main Office: 202.692.2900
          24-Hour Hotline: 800.233.5874 or 202.692.2915

                              Write:
                            Peace Corps
                      Attn: Inspector General
                        1111 20th St., NW
                      Washington, DC 20526

                                Or

                           Peace Corps
                     Attn: Inspector General
                        P.O. Box 57129
                   Washington, DC 20037-7129

                            Email:
                       OIG@peacecorps.gov

                           Website:
                     www.peacecorps.gov/OIG
